                             




            GENERAL SERVICES ADMINISTRATION
              OFFICE OF INSPECTOR GENERAL




AUDIT OF THE GSA’S BILLING AND ACCOUNTS RECEIVABLE MODULE
                       IMPLEMENTATION
              REPORT NUMBER A110116/B/F/F11010
                      SEPTEMBER 30, 2011




                                                             
              u.s. GENERAL SERVICES ADMINISTRATION
              Office of the Inspector General



Date: 	              Septen1ber 30, 2011

Reply to Attn of: 	 Finance and Information Technology Au dit Office (JA -F)

Subject: 	           Aud it of GSA's Bill ing and A cco unts Receivab le             Module
                     Implementation Report Number A 11 011 6/B/F/F1 101 0

To: 	                Alison L. Doone
                     Chief Financial Officer (B)

This letter report presents the results of our limited scope aud it of the imp lementation of
the Billing and A ccounts Receivable mod ule (BAAR) .

Objectives , Scope and Methodology

The objectives of this audit were to assess how the General Services Adm in istrati on
(GSA) is managing BAAR implementation specifi cally as it relates to: 1) Project costs;
2) Project Management; and 3) Contract requ ireme nts and deliverables.

To accomplish these objectives we :

   • 	 Reviewed GSA's Statement of W ork, CGI's (the contractor responsib le for
       implementation) proposed prices and deliverables, GSA's contract modifi cations,
       and CGI's invoices billed to the government.
   • 	 Reviewed CGl's technical proposal, CGI's project ma nagement plan , CG l' s
       progress repo rts, GSA's Earned Value Management repo rts .
   • 	 Reviewed the data conversio n pla n and test results, Integration (System)
       processes and testing results, and user acceptance testing.

Our audit was conducted between February 201 1 and Ju ly 201 1 in accorda nce with
generally accepted government auditing standards. Those sta ndards require that we
pla n and perform th e aud it to obtain sufficient, appropriate evidence to provide a
reasonable bas is for our find ings and concl usions based on our audit objectives

Background

T he Office of the Chief Fin ancial Officer is currently repla cing its legacy accou nts
receivable system with BAAR. BAAR will be part of Pegasys, GSA's fin an ci al system of
record. The irnplen1entation is an enterprise-wide effort to consolid ate and sta ndardize
GSA's billing and accounts receivab le business processes and technolog ies.



                                                1

                           1275 First Street, NE, Washington, DC 20417
On March 31, 2009, GSA awarded a contract to CGI to develop, operate and perform
maintenance of a Billing and Accounts Receivable module. The contract has a base
period of 3 years ending March 30, 2012 and an option for 2 additional years which, if
exercised, will extend the contract to March 30, 2014. GSA requirements included a
three-phase approach with implementation by organization or business li ne. CGI
proposed a schedule that included implementing the fleet and rent business li nes in
phase one which was originally scheduled to "go live" on July 18, 20 11.


Results of our Audit Survey

Our review of the project cost and contract requirements and delivera bles did not
identify any reportable deficiencies. Our review of the Earned Value Management
reports did not indicate any significant project schedule delays. However, we had
concerns about the testing phase. In particular, our review of the User Acceptance
Testing 1 (UAT) process, which began in April 2011, indicated management would not
have enough time to complete the UAT, analyze the results and make appropriate
adjustments prior to July 18, 2011. The GSA implementation team also conclUded that,
based on the progress of the UAT, they should delay the "go live" date by one month.
GSA was able to cornplete all testing activities, incl uding UAT, by the revised date
which enabled it to proceed with SAAR implementation on August 17, 2011.

This letter report does not contain any recommendations; therefore a written reply is not
required nor is the report subject to the audit resolution process. If you have any
questions or would like additional infornlation regarding this report, please contact
Donna Peterson-Jones, Audit Manager on 202-357-3620.




    q(k~P~-J~
Carolyn Presley-Doss
Deputy Assistant Inspector General
for Finance and Information Technology Audits




1User Acceptance Testing is a scripted process that is performed to simul ate production operations of
Billing and Accounts Receivable. It includes hands-on testing by GSA staff to exercise Billing and
Accounts Receivable and verify that it is ready for production .

                                                    2
                                               



     AUDIT OF THE GSA’S BILLING AND ACCOUNTS RECEIVABLE MODULE
                            IMPLEMENTATION
                   REPORT NUMBER A110116/B/F/F11010
                           SEPTEMBER 30, 2011


                           Appendix A: Report Distribution*




Chief Financial Officer, Office of the Chief Financial Officer (B)

Director, Office of Financial Management Systems (BD)

Acting Director, Internal Control Division (BCB)

Branch Chief, GAO and IG Audit Response Branch (BCBB)

Assistant Inspector General for Auditing (JA), Staff Audits Section

Deputy Assistant Inspector General for Investigations (JID), Staff Audits Section

Director, Audit Planning, Policy, and Operations Staff (JAO), Staff Audits Section




*Audit reports distributed electronically




                                            A-1

                                                                                      
